\

V

STATE OF OHIO

)

) SS:
COUNTY OF CUYAHOGA

)

STATEMENT OF LIMITATION
I Randall G. Stephens, being of fully age and of sound mind, willfully and
voluntarily being first duly sworn and under oath depose and state by these
presents do make and constitute as follows:
Know all men and women by these presents^ I Randall G. Stephens, further
depose and states I am the Petitioner in this Petition for Writ of Certiorari
Limitation action and this document states a accredit account of words in each of
the following documents.
Petition for Writ of Certiorari

1,896

Supreme Court Rule 34(g)(4) the Petition for Writ of Certiorari exceeds 1,500
and therefore, must contain a table of contents.
Table of Content

203

Affidavit in Support of Petition for Writ of Certiorari
Certification of Service

395

Statement of Limitation

431

445

The word count was recorded from my Lenovo Laptop Microsoft Windows 10.

r
-2-

DEFINITION
Petition.

A written address, embodying an application or prayer from the

person or persons preferring it, to the power, body, or person to whom it is
presented, for the exercise of his or their authority in the redress of some wrong, or
the grant of some favor, privilege, or license.
Writ of Certiorari.

An order by the appellate court which is used when the

court has discretion on whether or not to hear an appeal. If the writ is denied the
court refuses to hear the appeal and, in effect, the judgment below stands
unchanged. If the writ is granted, then it has the effect of ordering the lower court
to certify the record and send it up to the higher court which has used its discretion
to hear the appeal
This Statement of Limitation was Executed within the United States, its
territories, possessions, and commonwealths^ I declare under penalty of perjury
that the foregoing instrument is the truth the whole truth and nothing but the
truth and correct so help me God.
Executed on this Twenty First (21st ) day of January 2021 A. D.
Affiant further sayeth naught.
January 21, 2021 A. D.

*>

-3-

Respectfully submitted by,

Randall G. Stephens,
Affiant
P. O. Box 20051
Cleveland, Ohio 44120
(216) 536-1052
Sworn to and Subscribed Before me in and for said County of Cuyahoga and
State of Ohio on this Twenty First (21st ) day of January 2021 A. D., have hereunto
subscribed my name below and caused the Great Seal of the State of Ohio to be
affixed on this instrument.
My Commission Expires

CARUN E. McNARY, NOTARY
In and for the State of Chio
Recorded in Cuyahoga County
My Commission Expires 5-19-2024

(Notary Stamp)

/ (- Seal) (Notary Signature)

9

CERTIFICATION OF SERVICE
The original Statement of Certificate of Limitation was placed in the care of the
United States Postal Service, first class Priority Mail Tracking Insured Signature
Requested postage prepaid addressed to the United States Supreme Court 1 First
Street North East Washington D. C. 20543 Attention Clerk of Court this Twenty
First (21st.) day of January 2021 A. D.
One copy of my Statement of Certificate of Limitation was placed in the care of
the United States Postal Service, first class Priority Mail Tracking Insured
Signature Requested postage prepaid addressed to the Court of Common Pleas
Cuyahoga County, Ohio 1200 Ontario Street Cleveland, Ohio 44113 to the attention
of the Clerk of Court, this Twenty First (21st.) day of January 2021 A. D.
One copy of my Statement of Certificate of Limitation was placed in the care of
the United States Postal Service, first class Priority Mail Tracking Insured
Signature Requested postage prepaid addressed to the United States Department of
Justice, 950 Pennsylvania Avenue, North West Washington D. C., 2053-0001 to the
attention of the United States Attorney General William Barr, This Twenty First
(21st.) day of January 2021 A, D.
One copy of my Statement of Certificate of Limitation was placed in the care of
the United States Postal Service, first class Priority Mail Tracking Insured

-5Signature Requested postage prepaid addressed to the Ohio Attorney General Dave
Yost, 150 Gay Street 21st. Floor Columbus, Ohio 43215 to the attention of Timothy
X. McGrail, this Twenty First (21st.) day of January 2021 A. D.
One copy of my Statement of Certificate of Limitation was placed in the care of
the United States Postal Service, first class Priority Mail Tracking Insured
Signature Requested postage prepaid addressed to the Zashin & Rich Labor and
Employment Law Firm 950 Main Avenue 4th. Floor Cleveland, Ohio 44113 to the
attention of Attorney Jeffrey J. Wedel, Lead Attorney for the Respondents Dow
Chemical Company, this Twenty First (21st.) day of January 2021 A. D.
January 21, 2021 A. D.
Respectfully submitted by,

Randall G. Stephens,
Petitioner Pro se
P. O. Box 20051
Cleveland, Ohio 44120

